                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




      AGREED-UPON PROCEDURES OF CORPORATION
     FOR NATIONAL AND COMMUNITY SERVICE GRANTS
           AWARDED TO THE CIVIC VENTURES

                      OIG REPORT 09-13




                            Prepared by:

                 Mayer Hoffman McCann P.C.
              Conrad Government Services Division
                  2301 Dupont Drive, Suite 200
                     Irvine, California 92612




This report was issued to Corporation management on May 08, 2009. Under the laws
and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
November 06, 2009 and complete its corrective actions by May 07, 2010.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                         OFFICE OF INSPECTOR GENERAL

                                         May 8, 2009


TO:            Lois Nembhard
               Acting Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit


SUBJECT:       Report 09-13, Agreed-Upon Procedures of Corporation for National and
               Community Service Grants Awarded to Civic Ventures


We contracted with the independent certified public accounting firm of Mayer Hoffman
McCann, P.C. (MHM) to perform agreed-upon procedures in its review of Corporation grants
awarded to Civic Ventures (Civic). The contract required MHM to conduct its review in
accordance with generally accepted government auditing standards.

MHM is responsible for the attached report, dated March 2, 2009, and the conclusions
expressed therein. We do not express opinions on MHM’s Consolidated Schedule of
Awards, and Claimed and Questioned Costs, conclusions on the effectiveness of Civic’s
internal controls, or compliance with laws, regulations, and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings
in this report is due by November 6, 2009. Notice of final action is due by May 7, 2010.

If you have questions pertaining to this report, please call me at 202-606-9356.

Attachment

cc:     Ann Bowers, Audit Committee Chairman
        Marc Freedman, Chief Executive Officer
        Doug Braley, Vice President of Finance
        Michelle Hynes, Experience Corps, Vice President
        William Anderson, Acting Chief Financial Officer
        Rocco Gaudio, Deputy Chief Financial Officer, Grants and Field Financial Management
        Claire Moreno, Senior Grants Officer
        Sherry Blue, Audit Resolution Coordinator
        Joe Chen, Mayer Hoffman McCann P.C., Audit Manager



                  1201 New York Avenue, NW Suite 830, Washington, DC 20525
                    202-606-9390 Hotline: 800-452-8210 www.cncsoig.gov

                      Senior Corps   AmeriCorps   Learn and Serve America
  AGREED-UPON PROCEDURES OF CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                     GRANTS AWARDED TO CIVIC VENTURES

                                   Table of Contents

                                                                            Page

Executive Summary                                                            1

Independent Accountants’ Report on Applying Agreed-Upon Procedures           4

   Results – Costs Claimed                                                   5

   Consolidated Schedule of Award and Claimed Costs                          6

   Notes to Consolidated Schedule of Award and Claimed Costs                 7

        Schedule A-1 – Community Service Society of New York                 8

        Schedule A-2 – Temple University                                     10

        Schedule A-3 – CentroNia                                             12

   Results – Compliance and Internal Control                                 13

   Attachment A                                                              25

Appendix A – Civic Ventures’ Response to Draft Report

Appendix B – Corporation for National and Community Service’s Response to
             Draft Report
                                 EXECUTIVE SUMMARY




The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Mayer Hoffman McCann P.C. (MHM) to perform agreed-upon
procedures on grant costs and compliance for Corporation-funded Federal assistance
provided to the Civic Ventures.

Results

As a result of applying our procedures, we questioned claimed Federal-share costs of
$29,194 and education awards of $3,750. A questioned cost is an alleged violation of
provision of law, regulation, contract, grant, cooperative agreement, or other agreement or
document governing the expenditure of funds; or a finding that, at the time of testing, such
cost is not supported by adequate documentation. The detailed cost results of our agreed-
upon procedures are presented in the Consolidated Schedule of Award and Claimed Costs.

Civic Ventures claimed total Federal costs of $5,377,881 from October 1, 2006, through
September 30, 2008, under the Grant Nos. 05NDHCA001 and 02ADNCA002. As a result of
testing a judgmentally selected sample of transactions, we questioned costs claimed, as
shown in the following table.

                                                        Federal    Education
                 Description of Questioned Costs         Share      Award
              Grant No. 05NDHCA001
                Inadequate controls to monitor
                living allowances paid to          $   $ 19,649      $ 2,500
                AmeriCorps members
                Improper allocation of program
                                                          3,892              -
                costs
                Administrative cost exceeded 5%
                                                          2,099              -
                limitation
                Missing member’s service
                                                          3,554         1,250
                agreement
                                                 Total $ 29,194      $ 3,750

The amounts shown above were the exceptions found during our testing. Our testing also
revealed $3,642 of questioned match costs. However, we did not question any match costs
because Civic Ventures fulfilled its match obligation.

We have only tested the cumulative matching requirement for the entire grant period and
adequacy of match for Grant No. 02ADNCA002. The procedures we performed did not
result in questioned match costs.




                                             1
AmeriCorps members who successfully complete terms of service are eligible for education
awards funded by the National Service Trust. These award amounts are not funded by
Corporation grants and thus are not costs claimed by Civic Ventures. As part of our agreed-
upon procedures, however, we determined the effect of audit findings on eligibility for
education awards. Using the same criteria described above, we questioned education
awards of $3,750 due to non-compliance with program requirements.

Details related to these questioned costs and awards appear in the Independent
Accountants’ Report on Applying Agreed-Upon Procedures that follows.

The detailed results of our agreed-upon procedures revealed instances of non-compliance
with grant provisions, regulations, or Office of Management and Budget (OMB)
requirements, as shown below in the Compliance and Internal Control section. Issues
identified included:

      Living allowances were not paid in accordance with AmeriCorps provisions;

      Missing or inadequate eligibility and enrollment documentation for members;

      Non-Compliance with AmeriCorps provisions, including late submission of members’
       forms and FSRs; administrative costs claimed exceeded 5 percent; members’
       service term exceeded 12 months; members incurred service hours before signing a
       contract agreement; and

      Improper cost allocation methodology and missing supervisor signature on staff
       timesheets.

Agreed-Upon-Procedures Scope

We performed our agreed-upon procedures during the period October 20, 2008, through
January 16, 2009. The agreed-upon procedures covered the allowability, allocability, and
reasonableness of financial transactions claimed between October 1, 2006, and September
30, 2008, under Grant No. 05NDHCA001, with an award period of September 1, 2005, to
January 30, 2009. We also performed tests to determine compliance with grant terms and
provisions. In addition, for Grant No. 02ADNCA002, we performed limited tests to determine
if the cumulative matching requirement for the entire grant period was met and the
adequacy of match claimed between October 1, 2006, and December 31, 2006.

The procedures we performed are based on the OIG’s agreed-upon-procedures program,
dated July 2008 and are included in the Independent Accountants’ Report on Applying
Agreed-Upon Procedures section of this report.

Background

The Corporation, pursuant to the authority of the National Community Service Trust Act of
1993, as amended, awards grants and cooperative agreements to National Direct Grantees,
such as Civic Ventures, and other entities to assist in the creation of full-time and part-time
national and community service programs.




                                              2
Civic Ventures was organized in 1997 as a California Nonprofit Public Benefit Corporation to
engage in charitable and educational activities that are designed to redefine the second half
of life as a source of social and individual renewal. AmeriCorps members serve in the
Experience Corps program developed by Civic Ventures and its collaborating partners.

Federal costs claimed at the parent organization consisted of program personnel salaries
and administrative costs. Payroll was handled by outside consulting firms. Administrative
costs were allocated based on an indirect cost pool.

Civic Ventures’ subgrantees are independent organizations operating nationwide. There
were 14 subgrantees in Program Year 2006-2007 and 11 subgrantees in Program Year
2007-2008. On a semiannual basis, Civic Ventures completes the required Financial
Statement Reports (FSRs) by using the cost data in the organization’s accounting records
and the Periodic Expense Reports (PERs) and FSRs submitted by its subgrantees. Civic
Ventures’ FSRs include the information for all subgrantees and the parent organization.

As illustrated in the following table, Civic Ventures received Federal grant funds of
$10,949,312 for various Corporation programs and claimed Federal costs of $5,377,881
during the period we tested from October 1, 2006, through September 30, 2008.

                                                                     Claimed
                                                         Funding   Within Testing
                                                        Authorized     Period
  05NDHCA001 – National Direct                        $ 5,505,419     3,434,008
  02ADNCA002 – National Direct                           5,443,893    1,943,873
              Total – Grants Administered             $ 10,949,312    5,377,881

We compared the inception-to-date drawdown amounts with the amounts reported in the
most recent FSR and determined that the drawdown amounts were reasonable.

Exit Conference

The contents of this report were discussed with the Corporation and Civic Ventures at an
exit conference held in San Francisco, CA, on February 12, 2009. In addition, we provided
a draft of this report to Civic Ventures and to the Corporation for comment on March 18,
2009. In its response, Civic Ventures did not dispute any of the questioned costs and noted
that nearly all of the recommended adjustments had already been made. However, Civic
Ventures took issue with the recommendation that they should develop more effective
policies and procedures to monitor its subgrantees or develop more effective controls with
respect to subgrantee compliance. Civic Ventures believes their current policies and
procedures with respect to subgrantee monitoring are adequate and it is more a matter of
continued diligence in training, evaluating, and monitoring with respect to the existing
controls to ensure full compliance. Civic Ventures and the Corporation’s responses are
included within Appendices A and B, respectively, and are summarized in each finding.




                                             3
               Conrad Government Services Division



 Inspector General
 Corporation for National and Community Service


                             INDEPENDENT ACCOUNTANTS’ REPORT ON
                              APPLYING AGREED-UPON PROCEDURES

 We have performed the procedures described below for costs claimed between October 1,
 2006, and September 30, 2008. The procedures were agreed to by the OIG solely to assist
 it in grant-cost and compliance testing of Corporation-funded Federal assistance provided to
 Civic Ventures for the awards and periods listed below, with a combined award period of
 September 1, 2002 through January 30, 2009. Civic Ventures’ management is responsible
 for the accounting records. This agreed-upon procedures engagement was performed in
 accordance with attestation standards established by the American Institute of Certified
 Public Accountants and generally accepted government auditing standards. The sufficiency
 of these procedures is solely the responsibility of the OIG. Consequently, we make no
 representation regarding the sufficiency of the procedures described below, either for the
 purpose for which this report has been requested or any other purpose.

        Program               Award Number           Award Period            Testing Period
AmeriCorps National Direct    05NDHCA001          09/01/05 – 01/30/09    10/01/06 – 09/30/08
AmeriCorps National Direct    02ADNCA002          09/01/02 – 12/31/06    10/01/06 – 12/31/06

 We were not engaged to, and did not perform an examination, the objective of which would
 be the expression of an opinion on management’s assertions. Accordingly, we do not
 express such an opinion. Had we performed other procedures, other matters might have
 come to our attention that would have been reported to you.

 The procedures that we performed included obtaining an understanding of Civic Ventures
 and its subgrantee monitoring processes; reconciling Federal costs claimed and match
 costs to the accounting systems of Civic Ventures and of selected subgrantees; reviewing
 subgrantee member files to verify that the records supported member eligibility to serve and
 allowability of living allowances and education awards; and testing compliance of Civic
 Ventures and a sample of subgrantees with selected grant provisions and award terms and
 conditions.

 We also tested claimed grant costs and match costs of Civic Ventures and a sample of
 subgrantees to ensure: (i) Proper recording of the AmeriCorps grants; (ii) Costs were
 properly matched; and (iii) Costs were allowable and supported in accordance with
 applicable regulations, OMB circulars, grant provisions, and award terms and conditions.
 The procedures that we performed for Grant No. 02ADNCA002 were limited to determining
 if the cumulative matching requirement for the entire grant period was met and the
 adequacy of match claimed between October 1, 2006, and December 31, 2006.



                                              4
                               Results – Costs Claimed

The results of costs testing are summarized in the Consolidated Schedule of Award and
Claimed Costs and the schedules that follow. The schedules also identify instances of
questioned education awards. These awards are funded by the National Service Trust, not
the Corporation grant, and accordingly are not included in claimed costs. As part of our
agreed-upon procedures, however, we determined the effect of member service hour data
and eligibility exceptions on these awards.




                                           5
             CONSOLIDATED SCHEDULE OF AWARD AND CLAIMED COSTS
                            (Grant No. 05NDHCA001)

                                           Civic Ventures

                         October 1, 2006 through September 30, 2008

                                                       Questioned   Questioned
                                         Claimed        Federal     Education
                                          Costs          Costs       Awards       Reference

Civic Ventures – Parent
Organization                            $ 243,332               -            -
Greater Homewood Community
Corporation – Baltimore, MD                563,012              -            -
Working in the Schools – Chicago,
IL                                          71,899              -            -
RSVP of Greater Cleveland –
Cleveland, OH                              231,098              -            -
Make a Difference – Mesa, AZ                39,798              -            -
Volunteers of America –
Minneapolis, MN                            231,888              -            -
Community Service Society of New
York, NY *                                 464,142      $ 17,837      $ 3,750    Schedule A-1
Temple University – Philadelphia,
PA *                                       763,880         11,357            -   Schedule A-2
Metropolitan Family Services –
Portland, OR                               140,435              -
Sunset Neighborhood Beach
Center – San Francisco, CA                  95,942              -
City of Tempe – Tempe, AZ                   32,780              -            -
Volunteer Center of Southern
Arizona – Tucson, AZ                       148,946              -            -
Volunteer Center of Washington
County – St. George, UT                     58,957              -            -
CentroNia – Washington DC *                288,768              -            -   Schedule A-3
Big Brothers / Big Sisters of Central
Indiana                                      59,131            -            -
                                Total   $ 3,434,008     $ 29,194      $ 3,750


* - Subgrantee selected for application of agreed-upon procedures




                                                   6
            Notes to Consolidated Schedule of Award and Claimed Costs

Basis of Accounting

The accompanying schedules have been prepared to comply with provisions of the grant
agreements between the Corporation and Civic Ventures. The information presented in the
schedules has been prepared from reports submitted by Civic Ventures to the Corporation
and accounting records of Civic Ventures’ and its subgrantees. The basis of accounting
used in the preparation of these reports differs from accounting principles generally
accepted in the United States of America as discussed below.


Equipment

No equipment was purchased and claimed under Federal or match share of costs for the
period within our review scope.

Inventory

Minor materials and supplies were charged to expense during the period of purchase.




                                            7
                                                                              Schedule A-1
                                                                                Page 1 of 2

                         Schedule of Award and Claimed Costs
                        Community Service Society of New York

                      October 1, 2006 through September 30, 2008



Sub-award Federal Cost                                        Questioned                  Notes
   05NDHCA0010010                                $ 573,024                                 1

Claimed Federal Costs
    05NDHCA0010010                               $ 464,142                                  2

Questioned Federal Costs:
   Living allowances paid to non-member                         $     774                   3
   Individuals not enrolled in WBRS                                 6,192                   4
   Members enrolled in wrong program year                           7,317                   5
   Missing members contract                                         3,554                   6
     Total Questioned Federal Costs:                                        $ 17,837

Questioned Education Award:
   Members enrolled in wrong program year                       $   2,500                   5
   Missing member’s service agreement                               1,250                   6
     Total Questioned Education Awards:                                      $   3,750


Notes

1. The amount, shown above as sub-award Federal cost, represents the total funding to
   Community Service Society of New York according to the subgrantee agreement.

2. Claimed costs are Federal expenditures reported by Community Service Society of New
   York for the period October 1, 2006, through September 30, 2008.

3. Living allowances were mistakenly paid to an individual who was not an AmeriCorps
   participant, resulting in questioned living allowance and related FICA costs totaling $774
   (see Finding No. 1).

4. Four individuals received living allowance payments but were never enrolled as
   members. Questioned living allowances and related FICA total $6,192 (see Finding No.
   1).




                                             8
                                                                          Schedule A-1
                                                                            Page 2 of 2

                        Schedule of Award and Claimed Costs
                       Community Service Society of New York

                     October 1, 2006 through September 30, 2008



5. Three members performed services in Program Year (PY) 2005-2006 but were
   erroneously enrolled in WBRS as members for PY 2006-2007. Questioned living
   allowances and related FICA, and education awards total $7,317 and $2,500,
   respectively (see Finding No. 1).

6. Member contract was missing for one member. Questioned living allowances and
   related FICA, and education awards total $3,554 and $1,250, respectively (see Finding
   No. 2).




                                           9
                                                                             Schedule A-2
                                                                               Page 1 of 2

                         Schedule of Award and Claimed Costs
                                  Temple University

                     October 1, 2006 through September 30, 2008



Sub-award Federal Cost                                           Questioned                  Notes
   05NDHCA0010005                                   $ 955,039                                  1

Claimed Federal Costs
   05NDHCA0010005                                   $ 763,880                                  2

Questioned Federal Costs:
  Living allowances paid to non-member                               $     214                 3
  Extra living allowance installments                                      856                 4
  Living allowances in wrong program year funds                          2,584                 5
  Living allowances double claimed                                       1,712                 6
  Administrative costs exceeded 5%                                       2,099                 7
  Improper allocation of program costs                                   3,892                 8
    Total Questioned Federal Costs:                                              $ 11,357


Notes

1. The amount, shown above as sub-award Federal cost, represents the total funding to
   Temple University according to the subgrantee agreement.

2. Claimed costs are Federal expenditures reported by Temple University for the period
   October 1, 2006, through September 30, 2008.

3. One individual received a living allowance payment but did not serve in the program and
   was not enrolled in AmeriCorps. Our review determined that the person completed part
   of the enrollment process but failed the pre-assessment exam and was therefore not
   enrolled. Questioned living allowances and related FICA total $214 (see Finding No.1).

4. Two members in PY 2007-2008 received living allowance payments after they were
   exited from the program. Questioned living allowances and related FICA total $856 (see
   Finding No.1).

5. Three PY 2006-2007 members’ living allowances of $2,584 were paid with the PY 2007-
   2008 grant funds. The living allowances should be removed from PY 2007-2008 and
   claimed to PY 2006-2007 (see Finding No. 1).




                                           10
                                                                            Schedule A-2
                                                                              Page 2 of 2

                        Schedule of Award and Claimed Costs
                                 Temple University

                     October 1, 2006 through September 30, 2008


6. Four PY 2007-2008 members’ living allowances were claimed twice in April 2008 due to
   system and clerical errors. Questioned living allowances and related FICA total $1,712
   (see Finding No. 1).

7. Total administrative costs claimed for PY 2006-2007 exceeded five percent, which
   resulted in questioned costs of $2,099 (see Finding No.3).

8. The improper allocation of catering charges for a year-end graduation event resulted in
   $3,892 of Federal costs being over-claimed (see Finding No. 4).




                                           11
                                                                          Schedule A-3
                                                                            Page 1 of 1

                         Schedule of Award and Claimed Costs
                                      CentroNia

                     October 1, 2006 through September 30, 2008



Sub-award Federal Cost                                                           Notes
   05NDHCA0010014                                                 $   310,388      1

Claimed Federal Costs
   05NDHCA0010014                                                 $   288,768      2


Notes

1. The amount, shown above as sub-award Federal cost, represents the total funding to
   CentroNia according to the subgrantee agreement.

2. Claimed costs are Federal expenditures claimed by CentroNia for the period October 1,
   2006, through September 30, 2008.




                                          12
                           Results - Compliance and Internal Control

The results of our agreed-upon procedures revealed instances of non-compliance with grant
provisions, regulations, or OMB requirements, as shown below:

Finding 1. Living allowances were not paid in accordance with AmeriCorps
           provisions.

Living allowances paid to non-members

During our testing of member living allowances at Community Service Society of New York
(CSS), we discovered $774 of living allowances were erroneously paid to an individual who
was not an AmeriCorps member. CSS officials indicated this was due to lack of oversight.

Our testing at CSS also revealed four individuals who were not enrolled in WBRS as
AmeriCorps members but who received living allowances. CSS stated this was due to
clerical errors. Questioned living allowances and related FICA total $6,192.

During our testing at Temple University, we noted an individual received a living allowance
payment but did not serve in the program and was not enrolled in AmeriCorps. Temple
University stated the person completed a portion of the enrollment process but failed the
pre-assessment exam. Questioned living allowances and related FICA total $214.

Criteria

2006 AmeriCorps Special Provisions, Section IV.C.1. Member Enrollment Procedures,
states:

           a. An individual is enrolled as an AmeriCorps member when all of the
           following have occurred:
                   i. He or she has signed a member contract;
                   ii. The program has verified the individual's eligibility to serve;
                   iii. The individual has begun a term of service; and
                   iv. The program has approved the member enrollment form in WBRS.


2006 AmeriCorps Special Provisions, Section IV.L.1. Record Keeping, states:

           The grantee must maintain records specified in the Financial Management
           Standards (Section B) of the General Provisions below that document each
           member's eligibility to serve pursuant to the member eligibility requirements
           in the definitions section of these provisions. The records must be sufficient
           to establish that the individual was eligible to participate in the program and
           that the member successfully completed the program requirements.

Extra living allowance installments paid to members who exited the Program

During our testing at Temple University, two members in PY 2007-2008 received living
allowance payments after they exited the program. Temple officials stated that its staff
exited the members in WBRS, but forgot to inform the payroll department, resulting in
additional payments being paid. Questioned living allowances and related FICA total $856.


                                                 13
Criteria

2007 AmeriCorps Special Provisions, Section IV.I.1., Living Allowance Distribution states:

           Living allowance is not a wage. Programs must not pay a living allowance on
           an hourly basis. Programs should pay the living allowance in regular
           increments, such as weekly or bi-weekly, paying an increased increment only
           on the basis of increased living expenses such as food, housing, or
           transportation. Payments should not fluctuate based on the number of hours
           served in a particular time period, and must cease when a member concludes
           a term of service.

           If a member serves 1700 hours but is permitted to conclude a term of service
           before the originally agreed upon date, the program may not provide a “lump
           sum” payment to the member. Similarly, if a member enrolls after the
           program’s start date, the program must provide regular living allowance
           payments from the member’s start date and may not increase the member’s
           living allowance incremental payment or provide a lump sum to “make up”
           any missed payments.

Member’s living allowances were paid with incorrect program year funds and
members enrolled in wrong program year

During our testing at Temple University, we discovered that living allowances totaling $2,584
for three members in PY 2006-2007 were paid with PY 2007-2008 grant funds. The
subgrantee indicated that the error was due to the lack of oversight. The living allowances
should be adjusted out from PY 2007-2008 and claimed to PY 2006-2007, if the subgrantee
did not fully utilize its budgeted living allowance in PY 2006-2007.

During our testing at CSS, we discovered three members who served during PY 2005-2006
but were erroneously enrolled in WBRS as members for PY 2006-2007. CSS stated it had
forgotten to enroll the members for PY 2005-2006 and Civic Ventures had instructed it to
instead enroll the members in PY 2006-2007. Questioned living allowances and related
FICA, and education awards total $7,317 and $2,500, respectively.

Criteria

45 C.F.R. § 2543.28 Period of availability of funds, states:

           Where a funding period is specified, a recipient may charge to the grant only
           allowable costs resulting from obligations incurred during the funding period
           and any pre-award costs authorized by the Federal awarding agency,

Members’ living allowances were double-claimed to the Corporation

During our testing at Temple University, four members’ allowances were claimed twice in
April 2008 due to system and clerical errors. Questioned living allowances and related FICA
total $1,712.




                                                14
Criteria

2007 AmeriCorps General Provisions, Section V.B.1. Financial Management Standards,
states:

           The grantee must maintain financial management systems that include
           standard accounting practices, sufficient internal controls, a clear audit trail
           and written cost allocation procedures, as necessary. Financial management
           systems must be capable of distinguishing expenditures attributable to this
           grant from expenditures not attributable to this grant. The systems must be
           able to identify costs by programmatic year and by budget category and to
           differentiate between direct and indirect costs or administrative costs. For
           further details about the grantee's financial management responsibilities,
           refer to OMB Circular A-102 and its implementing regulations (45 C.F.R. §
           2543) or A-110 and its implementing regulations (45 C.F.R. § 2541), as
           applicable.

Recommendations

We recommend that the Corporation:

    1a. Resolve the questioned living allowances and recover any disallowed costs and the
        applicable administrative costs;

    1b. Disallow and recover, if used, education awards;

    1c. Adjust the $2,594 of living allowance at Temple University, which was erroneously
        claimed to PY 2007-2008, to PY 2006-2007;

    1d. Re-enroll the three members at CSS, who were erroneously enrolled in PY 2006-
        2007, to PY 2005-2006; and

    1e. Ensure that Civic Ventures develops more effective policies and procedures to
        monitor its subgrantees and ensure living allowance payments conform to all
        AmeriCorps provisions.

Civic Ventures’ Response

Civic Ventures agreed with the questioned amounts and stated that it had properly adjusted
the amounts questioned in its accounting records.

In addition, Civic Ventures indicated the subgrantees have designed new preventive and
detective controls to expose potential human errors when exiting and reenrolling eligible
members.

Civic Ventures’ response also questioned whether exiting the three CSS members from PY
2006-2007 in order to enroll them in PY 2005-2006 is an appropriate remedy for this error.
Civic Ventures noted that following the auditors’ recommendations would mean completing
the members’ enrollment in WBRS nearly three years after the program year in which they
served – thereby creating additional compliance issues. Civic Ventures is awaiting further
guidance from the Corporation concerning this recommendation.


                                                 15
Finally, Civic Ventures does not agree with the recommendation to “develop more effective
policies and procedures to monitor its subgrantees”. Civic Ventures believes that effective
policies and procedures are already in place and that the conditions noted in the finding
were due to human errors.

Auditor’s Comment

Civic Ventures indicated that it had properly adjusted the questioned living allowances in its
accounting system. The Corporation should follow up with Civic Ventures to ensure the
adjustments were correctly made.

The Corporation should work with Civic Ventures to determine if re-enrolling the three
members at CSS is an appropriate remedy. Re-enrolling the members does not result in
another compliance issue because this is a corrective action recommendation. Should the
Corporation determine re-enrolling the members is not an appropriate corrective action; the
members’ living allowance would not be resolved and should be questioned.

Although Civic Ventures indicated that effective procedures and controls to monitor its
subgrantees are already in place, we believe that if such policies and procedures were
effective, there would only be minimal or isolated errors occurring. However, our review
results, which are based only on a small sample tested, do not support that conclusion. As
such, we believe more effective policies and procedures should be developed by Civic
Ventures. The Corporation should follow up with Civic Ventures to determine whether the
proposed actions were implemented and are effective.


Finding 2.     Missing or inadequate eligibility and enrollment documentation for
               members.

Missing eligibility documentation

During our review of the 45 member files at Temple University, we discovered one enrolled
member did not have any documentation to support eligibility. The subgrantee stated that
the documentation was misplaced. No costs are questioned because no living allowance or
education award was paid to the individual.

Missing or inadequate enrollment documentation

Of the 45 member files reviewed at Temple University, three members, who were enrolled in
PY2006-2007, signed a PY 2007-2008 member contract. Temple University stated that
these members enrolled late and erroneously signed the contract for the wrong program
year.

During our review of the 26 member files at CSS, we discovered four members in PY 2006-
2007 did not have documentation that criminal background checks had been performed.
CSS stated background checks on these members were not conducted due to their late
enrollment. We did not question costs because the members were enrolled before the 45
CFR revisions of National Service Criminal History Checks, effective November 27, 2007.

In addition, we discovered one member did not have a signed contract on file. CSS stated
that the contract might have been misplaced. As such, we questioned $3,554 of Federal


                                             16
costs paid for the member’s living allowances and related FICA. In addition, we questioned
the member’s education award of $1,250.




Criteria

2007 AmeriCorps Special Provisions, Section IV.C.1. Member Enrollment Procedures,
states:

           a. An individual is enrolled as an AmeriCorps member when all of the
           following have occurred:
                   i. He or she has signed a member contract;
                   ii. The program has verified the individual's eligibility to serve;
                   iii. The individual has begun a term of service; and
                   iv. The program has approved the member enrollment form in WBRS.

2007 AmeriCorps Special Provisions, Section IV.C.7. Criminal Background Checks, states:

           Programs with members (18 and over) or grant-funded employees who, on a
           recurring basis, have access to children (usually defined under state or local
           law as un-emancipated minors under the age of 18) or to individuals
           considered vulnerable by the program (i.e. the elderly or individuals who are
           either physically or mentally disabled), shall, to the extent permitted by state
           and local law, conduct criminal background checks on these members or
           employees as part of the overall screening process.

2007 AmeriCorps Special Provisions, Section IV.L.1. Record Keeping, states:

           The grantee must maintain records specified in the Financial Management
           Standards (Section B) of the General Provisions below that document each
           member's eligibility to serve pursuant to the member eligibility requirements
           in the definitions section of these provisions. The records must be sufficient to
           establish that the individual was eligible to participate in the program and that
           the member successfully completed the program requirements.


Recommendations

We recommend that the Corporation:

    2a. Resolve the questioned living allowances and recover any disallowed costs and the
        applicable administrative costs;

    2b. Disallow and recover, if used, the education award for the member who was
        missing a contract; and

    2c. Ensure Civic Ventures develops more effective controls to ensure its subgrantees
        obtain and maintain all AmeriCorps eligibility and enrollment documentation,
        including member contracts, citizenship and background check evidence.


                                                  17
Civic Ventures’ Response

Civic Ventures requests that the Corporation not question the living allowance and
education award for the member who was missing the member agreement since there was
other adequate eligibility documentation maintained.

Civic Ventures does not agree with the recommendation to “develop more effective policies
and procedures to monitor its subgrantees”. Civic Ventures believes that effective policies
and procedures are already in place and the issue of a single missing member contract
discovered in an audit sample is an isolated error.

Auditor’s Comment

Notwithstanding the other eligibility documentation maintained by Civic Ventures for the
individual in question, a member agreement binds an AmeriCorps member to the program
and, without such an agreement, the individual is not an AmeriCorps member. The
Corporation should follow up with Civic Ventures to see if the missing agreement can be
located and, if not, Civic Ventures should repay the living allowance claimed for this
individual.

The auditor agrees that the missing member contract is an isolated occurrence and the
monitoring system Civic Ventures has in place is effective. However, our review results also
identified other instances of missing eligibility documentation and non-compliance issues
such as missing background checks, eligibility documentation, and incorrect contracts
signed by AmeriCorps members. We believe that a more effective system of subgrantee
monitoring and controls will prevent these conditions from occurring in the future. Therefore,
we recommend that the Corporation follow up with Civic Ventures to develop a more
effective system of subgrantee monitoring and controls.


Finding 3.   Non-Compliance with AmeriCorps provisions, including late submission
             of member forms and FSRs; administrative costs claimed exceeded 5
             percent; members’ service terms exceeded 12 months; and members
             incurred service hours before signing a contract agreement.

Late submissions

Our testing found that the following subgrantees submitted required forms late, as shown
below:

Temple University (ranges from 1 to 443 days late)
    35 of 45 Enrollment Forms.
    49 of 50 Change-of-Status Forms.
    28 of 45 Member Exit Forms.




                                             18
CSS (ranges from 1 to 225 days late)
    35 of 45 Enrollment Forms.
    49 of 50 Change-of-Status Forms.
    28 of 45 Member Exit Forms.
    3 of 12 FSRs.

CentroNia (ranges from 6 to 195 days late)
     8 of 16 Enrollment Forms.
     4 of 16 Change-of-Status Forms.
     7 of 16 Exit Forms.

Temple University indicated that member forms were submitted late due to lack of oversight.

CSS indicated that, due to the rapid expansion of its AmeriCorps program, it lacked
adequate staff to process forms in a timely manner. It also attributed the late submission of
FSRs to computer problems.

CentroNia indicated it relocated during PY 2006-2007 and could not access WBRS for
several months. In PY2007-2008, late enrollment reporting was impacted by a backlog of
work caused by its problems in PY 2006-2007.

Criteria

2007 AmeriCorps Special Provisions, Section IV.N.2. AmeriCorps Member-Related Forms,
states:

           The grantee is required to submit the following documents to the National
           Service Trust at the Corporation on forms provided by the Corporation.
           Grantees and sub-grantees may use WBRS to submit these forms
           electronically. Programs using WBRS must also maintain hard copies of the
           forms.

           a. Enrollment Forms. Enrollment forms must be submitted no later than 30
           days after a member is enrolled.

           b. Change of Status Forms. Member Change of Status Forms must be
           submitted no later than 30 days after a member’s status is changed. By
           forwarding Member Change of Status Forms to the Corporation, State
           Commissions and Parent Organizations signal their approval of the change.

           c. Exit/End-of-Term-of-Service Forms. Member Exit/End-of-Term-of-
           Service Forms must be submitted no later than 30 days after a member exits
           the program or finishes his/her term of service.

2006-2007 Service Agreement between Civic Ventures and CSS states in part,
“Projects are required to submit biannual Financial Status Reports no later than 25
days after the end of each six month period.“

Administrative Costs exceeded the 5 percent limitation




                                              19
Based on testing at Temple University, administrative costs claimed in PY2006-2007
exceeded the prescribed limit of 5 percent, as detailed below:

Total administrative costs claimed                            $    21,034
Total Corporation funds expended                                  378,707
Percentage of administrative costs claimed                         5.55%

Temple University claimed the entire 5 percent of administrative costs based on its budget
during the original term of the program year. However, it did not expend the total awarded
amount, which resulted in over-claimed administrative costs. Temple University stated that
this was done based on instructions from Civic Ventures. Excess costs claimed to the
administrative cost category at the subgrantee level may affect the overall computation of
the allowable costs claimed at the grantee level, causing noncompliance with program
provisions. As a result, $2,099 of administrative costs is questioned.

Criteria:

45 C.F.R § 2521.95, To what extent may I use grant funds for administrative costs? states:

           (a) Not more than five percent of the grant funds provided under this part for any
           fiscal year may be used to pay for administrative costs, as defined in § 2510.20 of
           this chapter.
           (b) The distribution of administrative costs between the grant and any subgrant will
           be subject to the approval of the Corporation.


Members’ service terms exceeded 12 months

During our review of member service agreements at Temple University, we found the stated
length of the term of service in 38 out of 45 member contracts exceeded one year. The
members were quarter time. Temple University indicated that there are three summer
months each year during which members cannot serve because the school is closed. This
situation was considered by Temple officials as a compelling circumstance to support the
suspension period and not to provide a partial education award. Therefore, the members
were allowed to return to serve the AmeriCorps program when school resumed in the fall.

The members’ term of service as stated in the members’ agreement, were not in compliance
with the AmeriCorps provisions, but the members’ living allowances for the last two months
were not questioned since they were suspended and reinstated due to compelling
circumstances. The living allowances were not paid during the time the members were
suspended.

Criteria

2006 AmeriCorps Special Provisions, Section IV.E.1. Terms of Service, states in part:

           1. Program Requirements. Each Program must, at the start of the term of
              service, establish the guidelines and definitions for the successful
              completion of the Program year, ensuring that these Program



                                                 20
              requirements meet the Corporation’s service hour requirements as
              defined below.

                  *      *      *

                  d. Quarter-Time Members. Quarter-time members must serve at
                  least 450 hours over a time not to exceed one year.

Members incurred service hours before signing a contract

At CSS, we reviewed hours served by 26 AmeriCorps members and determined that seven
members had incurred service hours before signing an AmeriCorps contract. CSS indicated
that the members had completed their paperwork and training and had submitted
timesheets for the period in question; however, the service agreements had not been signed
due to an oversight.

At CentroNia, we reviewed hours served by 16 AmeriCorps members and determined that
six members had incurred service hours before signing a contract. CentroNia indicated that
problem was due to staff oversight.

Criteria

2006 AmeriCorps Special Provisions, Section IV.C.1. Member Enrollment, Member
Enrollment Procedures, states:

           Member recruitment, selection and enrollment requirements are in the
           Corporation’s regulations at 45 C.F.R. Part 2522. In addition, the following
           apply:

           a. An individual is enrolled as an AmeriCorps member when all of the
              following have occurred:

                  i. He or she has signed a member contract;
                  ii. The program has verified the individual's eligibility to serve;
                  iii. The individual has begun a term of service; and
                  iv. The program has approved the member enrollment form in WBRS.

Recommendations

We recommend that the Corporation:

    3a. Resolve the questioned costs and recover any disallowed costs,

    3b. Ensure that Civic Ventures’ subgrantees (1) develop alternative procedures for
        updating members’ status in WBRS or other applicable systems, (2) inform the
        Corporation when technical problems prevent updating member status in WBRS,
        and (3) use alternative means to submit FSRs when technical problems arise;

    3c. Instruct Civic Ventures to train and monitor Temple University program officials to
        ensure administrative costs claimed are within the prescribed limit of 5 percent;



                                               21
    3d. Ensure Civic Ventures provides adequate training to its subgrantees so they are
        familiar with the AmeriCorps requirements for the twelve month member service
        term. The member slots could be converted to minimum time in order to complete
        service within the 12-month period.

    3e. Ensure Civic Ventures has its subgrantees sign member contracts before service
        begins.


Civic Ventures’ Response

Civic Ventures stated that it had extended CSS’ internal deadline for their submission of two
FSRs to October 30, 2006. In addition, Civic Ventures stated it was unclear on the
recommendation “to use alternative means to submit FSRs when technical problems arise”.

Civic Ventures agreed with the other recommendations and stated that corrective actions
have been implemented.

Auditor’s Comment

The auditors did not receive any written documentation to support the extension of the
deadline for the two FSRs to October 30, 2006. In addition, of the three late FSRs, one was
due on April 25, 2008 and was submitted by CSS on April 28, 2008. The auditors
recommended alternative means to submit FSRs, including postmarked mail, fax, or delivery
in person, if possible.

The auditor concurs with Civic Ventures’ other corrective action plans and recommends that
the Corporation follow up with the grantee to ensure they have been implemented.


Finding 4.   Improper cost allocation methodology and missing supervisor signature
             on staff timesheets.

Improper cost allocation methodology for program costs claimed to the Corporation

Temple University claimed $6,490 of catering service charges for 400 attendees at a year-
end graduation event which included both AmeriCorps members and other volunteers.
Temple University stated that there were many similar events during the program year that
AmeriCorps members had attended. The costs for those events were paid with Temple
University’s own funds. Therefore, Temple University believed that it was reasonable to
claim the entire cost of this event to Federal share and it was unaware that the cost needed
to be allocated for every event. We requested the subgrantee to recalculate the amount
based on the number of AmeriCorps members who attended. Temple University’s
recalculation resulted in questioned costs of $3,892.

Criteria:

OMB Circular No. A-122, Cost Principles for Non-Profit Organizations Attachment A.,
General Principles, Section A.4. Allocable Costs, states:




                                             22
           a. A cost is allocable to a particular cost objective, such as a grant, contract,
           project, service, or other activity, in accordance with the relative benefits
           received. A cost is allocable to a Federal award if it is treated consistently
           with other costs incurred for the same purpose in like circumstances and if it:
           (1) Is incurred specifically for the award.
           (2) Benefits both the award and other work and can be distributed in
           reasonable proportion to the benefits received, or
           (3) Is necessary to the overall operation of the organization, although a direct
           relationship to any particular cost objective cannot be shown.

           b. Any cost allocable to a particular award or other cost objective under these
           principles may not be shifted to other Federal awards to overcome funding
           deficiencies, or to avoid restrictions imposed by law or by the terms of the
           award.


Missing supervisor signatures on staff timesheets

During payroll testing at CentroNia, we discovered that timesheets were not signed by a
supervisor for four of the six staff timesheets we reviewed. CentroNia stated that there was
some confusion during the month tested as CentroNia was relocating its offices and
timesheets had been left unsigned.

Criteria

CentroNia Finance and Accounting Policies and Procedures Manual states, in part:

           D. Preparation of the Payroll

               Upon receipt of timesheets, the person responsible for processing payroll
               will:

              Ensure that both the employee and supervisor have signed the timesheet.


Recommendations

We recommend that the Corporation:

    4a. Resolve the questioned costs and recover any disallowed costs and the applicable
        administrative costs;

    4b. Ensure Civic Ventures provides training to its subgrantees to establish an equitable
        allocation methodology for program costs claimed; and

    4c. Ensure Civic Ventures oversees its subgrantees to strengthen controls over
        timesheet preparation.




                                                  23
Civic Ventures’ Response

Civic Ventures agreed with the amount questioned and stated that it has adjusted its
accounting systems and the PER to reflect the proper amount.

Civic Ventures stated that finding concerning staff timesheets at one sub-grantee is an
isolated incident and disagreed with the recommendation to work with subgrantees to
“strengthen controls over timesheet preparation” Instead, Civic Ventures intends to continue
to instruct subgrantees to develop, review, and adapt policies as necessary to ensure its
policies are compliant with OMB A-122 regulations.


Auditor’s Comment

Noncompliance with internal policies and procedures are reported to management to assist
the organization in processing transactions consistent with management’s intent. Civic
Ventures should either revise its timesheet policies to require a single signature from either
the employee or supervisor, or strengthen its current practice to ensure compliance with its’
existing timesheet policies. We recommend that the Corporation follow up with Civic
Ventures to ensure that corrective actions have been implemented and are effective.


This report is intended for the information and use of the Office of Inspector General,
Corporation management, Civic Ventures, and the U.S. Congress. However, this report is a
matter of public record and its distribution is not limited.




Irvine, California
March 2, 2009




                                             24
                                                                             Attachment A



            Consolidated Schedule of Recommendations and Questioned Costs


                                   Questioned Costs                       Funds Put to
                                                                                     3
Recommendation             Unallowable1        Unsupported2               Better Use
      1                        $ 19,649                    -                  $ 2,500
      2                            3,554               3,554                      1,500
      3                            2,099                   -                         -
      4                            3,892                   -                         -
     Total                     $ 29,194                3,554                  $ 3,500



_______________

1   Questioned Cost means a cost that is unallowable because of:
     1. an alleged violation of a provision of a law, regulation, contract, grant,
        cooperative agreement, or other agreement or document governing the
        expenditure of funds;
     2. a finding that, at the time of the audit, such cost is not supported by adequate
        documentation; or
     3. a finding that the expenditure of funds for the intended purpose is unnecessary or
        unreasonable.
2
   Unsupported Cost means a cost that is questioned because at the time of the audit,
such cost is not supported by adequate documentation. Unsupported costs are included
in the total of unallowable costs.
3
   Recommendation that funds put to better use means a recommendation that funds
could be used more efficiently if management takes actions to implement and complete
the recommendation, including:
    1. reductions in outlays;
    2. deobligation of funds from programs or operations;
    3. withdrawal of interest subsidy costs on loans or loan guarantees, insurance, or
       bonds;
    4. costs not incurred by implementing recommended improvements related to the
       operations of the establishment, a contractor or grantee;
    5. avoidance of unnecessary expenditures noted in pre-award reviews of contract
       or grant agreements; or
    6. any other savings which are specifically identified.




                                            25
                APPENDIX A
CIVIC VENTURES RESPONSES TO DRAFT REPORT




                   26
April 16, 2009

Mr. Richard Samson
Audit Manager, Office of the Inspector General
Corporation for National and Community Service
1201 New York Avenue NW, Suite 830
Washington, DC 20525

Dear Mr. Samson:

Civic Ventures appreciates the opportunity to respond to Mayer Hoffman McCann’s report on
their Agreed-Upon Procedures Review of our AmeriCorps grants identified as 05NDHCA001
and 02ADNCA002. As you know, these AmeriCorps grants supported part-time service by older
adult participants in Civic Ventures’ Experience Corps program.

Our responses to each of the auditors’ findings, and to their recommendations for resolution, are
shown in the document following this letter. This document represents input from Experience
Corps’s program staff, Civic Ventures’ finance staff, and each of the tested subgrantees.

As you will see, we are not disputing any of the questioned costs. In response to the auditors’
findings, nearly all of the recommended adjustments have already been made in subgrantee PERs
and related payments. Our internal financial procedures, which only allow draw-downs for the
AmeriCorps subgrants on a reimbursement basis, allowed us to quickly recover unqualified
funds.

However, we are raising questions and concerns about the auditors’ broadly-stated
recommendations that Civic Ventures should “develop more effective policies and procedures to
monitor its subgrantees” or “develop more effective controls” with respect to subgrantee
compliance. While we readily acknowledge the existence of human error in some of the
subgrantee procedures, and welcome feedback that will strengthen how we work with
AmeriCorps subgrantees, we have noted that it is not an issue of “more and better” controls and
procedures, but rather it is an issue of continued diligence in training, evaluating, and monitoring
with respect to the existing controls to ensure full compliance.

We shared with the auditors during their initial planning visit, and throughout their fieldwork,
what we believe are well-developed monitoring systems and controls. The fact that there are no
findings from the fieldwork at the parent organization supports our assertion that our basic
systems and controls are sound. We look forward to a conversation with the Corporation about
this during the resolution phase.

Thank you.

Sincerely,




Michelle E. Hynes
Vice President, Civic Ventures




                                                 27
Copies:   Marc Freedman, CEO, Civic Ventures
          Doug Braley, VP for Finance and Administration, Civic Ventures
          Amy Zandarski-Pica, Director of Programs, Experience Corps
          Claire Moreno, Corporation for National and Community Service




                                       28
                           CIVIC VENTURES RESPONSE
                          TO CNCS OIG AUDIT FINDINGS
                              Submitted April 16, 2009

From October 2008-January 2009, at the request of the CNCS Office of Inspector
General, a team of auditors from Mayer Hoffman McCann conducted an Agreed Upon
Procedures Review (AUPR) of Civic Ventures’ AmeriCorps grants identified as
05NDHCA001 and 02ADNCA002. These AmeriCorps grants support part-time service
by older adults who are participants in Civic Ventures’ Experience Corps program.
Civic Ventures’ oversight and management of the federal awards and related sub-grantee
use of funds has and continues to be conducted with exceptional rigor and
professionalism. The findings noted by the OIG-assigned auditors in this report represent
0.5% of the claimed funds for the testing period and 0.26% of the total authorized federal
funding, supporting Civic Ventures’ classification as a low-risk auditee.

The types of costs questioned by the OIG-assigned auditors are associated with human
error and are not evidence of problems systemic throughout the national network of sub-
grantees. Further, Civic Ventures lowers financial-loss risk by requiring all of its sub-
grantees to draw federal funds down on a reimbursement basis only. As a result, any
questioned costs, whether through this review or Civic Ventures own internal audits, have
been recovered through a credit against funds drawn on future monies earned. With
respect to the questioned costs associated with this AUPR, accounting adjustments
referenced below are reflected in subgrantee PERs for the last quarter of 2008 and will
therefore be included in Civic Ventur€€€es’ FSR due to CNCS on April 30th, 2009.

Civic Ventures uses its own internal control procedures, as well as financial management
policies, as a baseline in evaluating sub-grantees. Civic Ventures, the parent, had its
financial systems and records examined by the OIG-assigned auditors with no findings
reported. Where findings point to potential gaps in knowledge or practices by sub-grantee
staff, Civic Ventures will, as it has consistently in the past, devote necessary resources to
ensure complete compliance by providing additional training and implementing
corrective controls.

Finding 1. Living allowances were not paid in accordance with AmeriCorps provisions.

1a, b. Civic Ventures does not dispute the questioned costs associated with this finding.
PERs and associated payments for the two sub-grantees have been adjusted according to
the auditors’ recommendations, resulting in recovered costs. As of the date of this report,
as reported by the CNCS Trust, the education awards had not been claimed by the
individuals.




                                             29
1c.     The sub-grantee has properly recorded the living allowance amount erroneously
claimed to PY 2007-2008 to the correct grant year, PY2006-2007 (accounting entry only;
no questioned costs involved). In addition, the sub-grantee has designed new preventive
and detective controls to expose potential human error when exiting and reenrolling
eligible members.
1d.     Civic Ventures questions whether exiting the three CSSNY members from PY
2006-2007 in order to enroll them in PY 2005-2006 is an appropriate remedy for this
error. Following the auditors’ recommendations would mean completing the members’
enrollment in WBRS nearly three years after the program year in which they served –
thereby creating additional compliance issues. We are awaiting further guidance from
CNCS concerning this recommendation.
1e.     Civic Ventures does not agree that the recommendation to “develop more
effective policies and procedures to monitor its sub-grantees” appropriately responds to
the findings. Civic Ventures, as the parent, has designed and regularly implements a
detailed monitoring process for all of its sub-grantees, as shared with the OIG-assigned
auditors and described below. Civic Ventures, as the grantee, does adhere to the Financial
Management Standards in the AmeriCorps General Provisions and expects, reviews, and
tests that sub-grantees do the same.

The findings stated in the report do not represent a systemic situation that warrants a
change in what are already well-defined and well-executed monitoring policies and
practices. Nor will more policies and procedures ever completely eliminate risk from
human error. Civic Ventures has, and will continue to, monitor the adherence to such
policies; audit the financial and programmatic data as it relates to those policies and
procedures; and when errors occur will reinforce the effective policies and procedures
already in place.

PROGRAM AUDIT PROCEDURES

Each year the Experience Corps national staff conducts an audit (review) of each local project’s
AmeriCorps member files and financial systems. The goal is to ensure compliance with the
Corporation and state regulations, policies, and grant provisions. Review and testing of local
project procedures and practices is a critical component of the national office’s obligations to both
funders and Experience Corps’ governing body.

Because the audit review involves personnel and operating costs for both the national office and
the local project, the Experience Corps national office is committed to conducting the process in
the most efficient means possible. Program audits may be conducted as desk audits, on-site
audits, or a combination of both. Local projects are risk assessed by national office staff at least
annually.

In assessing a local project’s risk rating (low, moderate, or high), national office staff will rely on
the following:
     prior year audit findings and project’s capacity to resolve issues;
     review of national EC program staff site-visit reports and recommendations;
     turnover of local project staff;
     size of local project and/or number of AmeriCorps slots;
     red flags identified in WBRS and other project reports;



                                                   30
       local project transfer to new organization;
       project’s technical assistance and training needs; and,
       local project’s ability to meet performance measures.

If a local project is assigned a low risk assessment rating, national staff may use the following
procedures:
      1. Project notified of low risk assessment rating.
      2. Date and time scheduled for desk audit.
      3. AmeriCorps monitoring tool sent to project at least 2 weeks prior to audit.
      4. Program Manager conducts audit via telephone. Requested documents faxed backed to
         Program Manager within designated timeframe.
      5. Audit findings and recommendation are submitted to local project via audit tracking form,
         which includes steps for resolution, responsible staff and timeframe.
      6. Resolution of findings as soon as possible.
      7. Identification of technical assistance and training opportunities.
      8. Implementation of corrective action as necessary.

Although national staff may elect to test local project compliance through a desk audit process,
future on-site appointments with low-risk local projects may still involve some audit procedures
based on the results of the above process or if the national office believes such action is
warranted.

Local projects assigned a moderate or high-risk rating may be subject to both desk and on-site
processes. Basic steps for an on-site process include:

Before the visit
   - Schedule time with project and financial staff as needed to review the files
   - At larger organizations (e.g. universities) be sure access to the appropriate files is
       secured
   - Send letter and project visit protocol in advance
   - Review all prior and current documents related to the local project, including prior audit
       and program reports
   - Prepare sampling data and audit tools to use on-site

During the visit
   - Begin and end by meeting with senior project person, first to set expectations and then to
       give feedback
   - Schedule time with “CEO” at larger organization – that is, the senior project person’s
       supervisor unless that person is the Executive Director

After the visit
    - Project report
    - Thank you letters
    - Copy of findings to San Francisco business office
    - Obtain missing documents by 30 day deadline

Whether desk or on-site procedures are followed, any findings will result in immediate suspension
of future project grant payments until issues are resolved and national staff can verify that
procedures and policies are in place to avoid future problems.


The audit protocol is guided by an On-Site Monitoring Tool:
Please provide a copy of the email correspondence detailing the purpose and expectations of this
audit and this page (financial management systems) to your finance staff in advance of the Civic
Ventures project visit. Civic Ventures staff will spot-check items that are on the Financial Census
to ensure strong fiscal management at the lead agency level, emphasizing the following


                                                31
components:

    Background Documentation (e.g. receipts, invoices, payroll journals, etc.) for Financial
     Status Reports (FSR), Periodic Expense Reports (PER) and/or Project Financial Reports
     (PFR). (Civic Ventures will request background documentation for specific months’
     expenditures.)

    Signed and dated Staff Timecards showing appropriate time/hour allocations to
     AmeriCorps and other projects. (Project must indicate how much of staff time is
     AmeriCorps eligible and indicate a proper match for the other time. We will look at
     Experience Corps budget, AmeriCorps Budget, and/or overall organizational budget and
     payroll records during audit to verify time allocation.)

    Documentation of Program “Match” Funds (e.g. foundation letters): Using Grant Year-
     specific guidelines, determine that sufficient non-federal matching funds are available for
     Minimum Member Support; Minimum Operating Costs; and Minimum Overall Share
     percentages.

    Experience Corps program financial statements (indicating year-to-date and month-to-date
     income and expenditures) demonstrate that expenses meet or exceed the combined
     corporation share and match as reported in WBRS. Obtain copy of most recent financial
     statement.

    Determine whether the program is receiving sufficient financial oversight and/or guidance
     from lead agency (e.g. receiving regular financial statements)

    Request and review a copy of independent lead agency audit and any required or
     supplementary schedules (such as the A-133 Audit Report). Note if findings are listed and
     incorporate such findings, regardless of program audited, into future sub-grantee
     monitoring protocol.

    Where management letter from auditor has been prepared, request and review a copy,
     incorporating any auditor feedback into future sub-grantee monitoring protocol.



Our goal is to identify and correct not only mistakes that may occur because of human
error or staff turnover, but also to flag any systemic problems or misunderstandings about
AmeriCorps procedures. We utilize the findings of our annual reviews to inform and
improve our technical assistance and training for each sub-grantee as well as our
processes at the national level. Since September 2007, when CNCS announced the
phase-out of WBRS, we constructed and enforce the use of a monthly member and
financial management reporting system designed to be a more robust detective control
aimed at eliminating the type of errors associated with this finding.

Civic Ventures, as the parent, has a responsibility to sample sub-grantee data to
determine that the collection and reporting of data is accurate and follows proper
procedures. When errors are detected, all parties are informed of the errors; preventive
and detective controls are reviewed and evaluated; and corrective controls are discussed.
Any discovered errors that result in improper access of federal funds result in an
immediate financial adjustment that provides for the return of funds related to unqualified
costs. Civic Ventures further reduces risk by requiring that all sub-grantee requests for



                                               32
federal funds be processed on a reimbursement basis. As a result, recovered costs are
obtained through a credit to future funds earned and owed.

Finding 2. Missing or inadequate eligibility and enrollment documentation for
members.

2a, b. Civic Ventures does not dispute that the member’s contract is missing. Based on
the fact that the member’s file is otherwise complete – including all required enrollment
forms, background checks, member performance evaluation forms, and time logs -- we
associate the missing contract with human error. The member’s file includes documents
that make the terms and conditions of service clear; and there is no question that the
member served. We are requesting that CNCS not disallow the living allowance and
education award for this member.

2c.     Civic Ventures disagrees that instruction to Civic Ventures to “develop more
effective controls” appropriately responds to the findings. The broadly-written
recommendation is neither informative nor relevant. In this case, the issue of a single
missing member contract discovered in an audit sample does not translate into too few or
ineffective controls.

Civic Ventures uses its own internal control procedures, as well as its established
financial management policies, as a baseline in training and evaluating sub-grantees.
Civic Ventures, the parent, had its financial systems and records examined by the OIG-
assigned auditors with no findings reported.

Further, as shared with the OIG-assigned auditors, Civic Ventures devotes significant
resources to (a) train sub-grantees on proper procedures with respect to what information
belongs in each member’s file, as articulated in the following checklist; (b) implement an
annual auditing/document review process as described above in response to Finding 1;
and (c) identify and report to the sub-grantee staff when their controls appear weak or
nonexistent, requesting corrective action and appropriate corrective control
documentation.

Member File Required Documents Checklist

Member Application                                  Emergency Notification Information
                                                    Signed Self-Certification on Member Enrollment
                                                    Form of High School Diploma, GED, or Other
Signed and Dated Member Agreement                   Educational Status.
                                                    Members (tutors) WITHOUT High School Diploma
Signed and Dated Member Enrollment Form (All        / GED must pass a proficiency test. (Please
3 pages)                                            provide documentation of test and results).
                                                    Members (tutors) must have appropriate
                                                    supervision by individuals with expertise in
Interview Questions and Notes                       tutoring. (Please list supervisor's name and title.)
                                                    Current, Signed & Dated Member Time Sheets
Notes from Calls to References                      and Activity Logs in Chronological Order
National Service Criminal History Checks
□ State Criminal Registry Check                     Member Time Sheets have direct and indirect
                                                    activities separated? Yes/No



                                               33
□ National Sex Offender Public Registry Check


Documentation of Eligibility (please indicate        Member Performance Evaluation Forms (Mid-term
document reviewed)                                   and End-of-term)
New I-9 Form and Documentation being used            Member Correspondence/ Documentation of Any
(please indicate document(s) reviewed)               Disciplinary Action
                                                     Photo, Personal Story and Name Use Release
W-4 Form                                             and Consent Form (recommended)



Member Training & Orientation

Experience Corps National staff will ask to review your member training and orientation
materials during the project visit. Each Experience Corps/ AmeriCorps member must be
trained in what it means to participate in Experience Corps and AmeriCorps,
opportunities and requirements of each program, expectations of the lead agency and
placement sites, along with any other information pertinent to the local lead agency.
AmeriCorps members should receive a copy of their signed member agreement and a
member “handbook/ packet of information” which includes the following information:
      Overview of Civic Ventures and Experience Corps
      Overview of AmeriCorps
      Signed Copy and an Overview of the Member Agreement and Provisions, including:
          Terms of Service (including explanation of terms and limits)
          Living Allowance (stipend) information and how taxes and benefits may be affected
      Prohibited Program Activities
      Disciplinary Procedures
      Grievance Procedures
      Release from Participation
      Education Award Information
      Liability and Safety Issues
      Sexual Harassment and other nondiscrimination issues
      Reasonable Accommodations
      Drug-Free Workplace
      Local Contact Information (where to go/ to whom a member should speak with if there is
       a problem)
      Citizenship Training Materials
      Literacy and/or Mentoring Training Materials



As noted in Finding 1, Civic Ventures, as the parent, has a responsibility to sample sub-
grantee data to determine that the collection and reporting of data is accurate and follows
proper procedures. When errors are detected, all parties are informed of the errors;
preventive and detective controls are reviewed and evaluated; and corrective controls are
discussed. Any discovered errors that result in non-compliant transactions and/or
improper access of federal funds result in an immediate financial adjustment that
provides for the return of funds related to unqualified costs. Civic Ventures further
reduces risk by requiring that all sub-grantee requests for federal funds be processed on a
reimbursement basis. As a result, recovered costs are obtained through a credit to future
funds earned and owed.




                                                34
Finding 3. Non-compliance with AmeriCorps provisions, including late submission of
members forms and FSRs; administrative costs claimed exceeded 5 percent; members’
service terms exceeded 12 months; and members incurred service hours before signing
a contract agreement.

3a.      The over-claimed administrative costs ($2,099 federal share at sub-grantee) have
been accounted for in an accounting adjustment, including an adjustment to the related
PER. This error was a result of claiming administrative costs based on the budget rather
than on the expended direct costs. However, the sub-grantee was still eligible to recover
the full federal share, and did legitimately claim and draw down the amount for the four-
month period, September-December 2008.

3b.     Civic Ventures agrees that timely enrollment and exiting of members, compliant
with the “30-day rule,” must occur. As noted in the auditors’ report, sub-grantee staff
turnover and understaffing have contributed to some enrollment and exit delays. With
respect to the auditors’ specific recommendations:

   (1) develop alternative procedures for updating members’ status. Starting in
   September 2007, Civic Ventures developed a reporting system that allows for the
   national office to track member enrollment, exiting, change of status, and time served.
   Data in the tracking system is submitted at the same time as a financial report, which
   must be submitted on a monthly basis and no later than quarterly. Civic Ventures
   conducted a training via webinar on March 30, 2009, focused on timely and accurate
   reporting. The training emphasized compliance with the 30-day rule and was attended
   by all 11 current sub-grantees.

   (2) inform CNCS when technical problems prevent updating member status. Civic
   Ventures agrees that we should inform CNCS in a timely way of any technical issues
   at the grantee or sub-grantee level that may interfere with timely reporting. However,
   we disagree with the auditors’ recommendation, which does not appropriately
   respond to the findings or the causes that were described to them during fieldwork.
   There has been no late submission of FSRs from Civic Ventures to CNCS that was
   not explicitly negotiated in advance with the grants officer; nor does the finding from
   this AUPR refer to any late reporting from sub-grantees to Civic Ventures that
   affected timely reporting to CNCS. Despite Civic Ventures’ explanation that we had
   extended our internal deadline for the FSR due on 10/30/2006 because of technical
   problems reported to us in advance by a sub-grantee, the auditors insisted on
   including the internal late-submission finding related to that sub-grantee.

   (3) use alternative means to submit FSRs when technical problems arise. Civic
   Ventures is unclear on the intent of this recommendation. If there is a legitimate
   technological barrier to submitting data, then Civic Ventures follows all available
   options for communicating with appropriate CNCS representatives for official
   guidance.




                                           35
3c.     Civic Ventures reviews each sub-grantee’s budget before submission to ensure it
is compliant with AmeriCorps regulations, provides information and training to program
and financial staff at least annually, and monitors spending by each sub-grantee at least
quarterly. We have discussed the administrative cost finding with sub-grantee officials,
clarifying the rules pertaining to claiming these costs.

3d.     Civic Ventures reviews AmeriCorps provisions each year, includes these in our
annual written agreement with each sub-grantee, and provides training to each sub-
grantee before a new program year begins. This finding at one sub-grantee resulted from
an error in implementation of member contract procedures rather than a lack of
understanding of the 12-month term. Clarification has been provided to sub-grantee
program staff and related procedures have been adjusted to ensure compliance with the
AmeriCorps requirements.

With respect to the issue of converting slots to minimum time, Civic Ventures has
already undertaken an internal review of data related to member completion rates.
Because the review demonstrated that a large number of members were not completing
450-hour terms within twelve months, in September 2008 we applied for, received, and
assigned a portion of slots as minimum-time rather than quarter-time. We will continue
this practice in the future and will request conversion of current quarter-time slots to
minimum-time as needed.

3e.     Civic Ventures provides training to its sub-grantees at least annually about
compliance with AmeriCorps rules related to member contracts and other enrollment
documentation. We provide a template for the member contract to each sub-grantee each
program year, and we monitor its inclusion in member files as well as the timing of
signatures through our regular monitoring process described above. The findings here are
not associated with any questioned costs and the auditors note the issue is largely
associated with staff error rather than any misunderstanding of proper procedures. As a
result, Civic Ventures, during its next training opportunity, will re-emphasize to the sub-
grantees the importance of ensuring that members sign their contracts prior to beginning
service. In addition, sub-grantees with member contract-related errors will continue to
experience increased monitoring by our national staff in this area.




                                            36
Finding 4. Improper cost allocation methodology and missing supervisor signature on
staff timesheets.

4a.    Civic Ventures does not dispute the questioned cost associated with this finding.
The PER and associated payment for the sub-grantee has been adjusted according to the
auditors’ recommendations, resulting in recovered costs.

4b.      Civic Ventures does require, as stated in its grant agreement with sub-grantees,
that all activity be conducted in accordance with OMB Circulars, including A-122 and its
cost allocation provisions. Civic Ventures will continue to emphasize the necessity of
having and abiding by an appropriate allocation policy.

4c.     This finding concerning staff timesheets at one sub-grantee is an isolated incident
not found across the tested sub-grantees. The auditors cite non-compliance with the sub-
grantee’s own internal written policies, not federal regulations. The timesheets the
auditors reviewed were present, were signed by the employees, and thus were in
compliance with OMB Circular A-122. We disagree that we need to work with sub-
grantees to “strengthen controls over timesheet preparation.” Rather, we intend to
continue to instruct sub-grantees to develop, review, and adapt policies as necessary to
ensure such policies are compliant with regulations. This includes making sure that time
activity reports supporting grant-funded personnel are signed by the employee OR the
supervisor (per A-122 guidelines), which these referenced timesheets were.

In conclusion, Civic Ventures appreciates the opportunity to provide this response. We
look forward to the Corporation’s feedback on the findings and the auditors’
recommendations.

Thank you.




                                            37
                              APPENDIX B

Corporation for National and Community Service’s Response to Draft Report




                                   38
                                 NATIONAL&:
                                 COMMUNITY
                                 SERVICEr;m:

To:            Stuar).,f\xenfeld. ll1Sp,:et9r?",,,,,1lI for Audit

From:                                                        Management

Date:

SUbject:       Response to OIG Draft of Agreed-Upon Procedures of Grants Awarded to Civic
               Ventures


Thank you for the opportunity to review the Office of the Inspector General draft Agreed-Upon
Procedures report of the Corporation's grants awarded to Civic Ventures (CY). We will work
with CV to ensure its corrective action plan adequately addresses the findings and
recommendations. We will respond with the management decision after we have reviewed the
audit working papers and the CV corrective action plan.

Cc:     William Anderson, Acting Chief Financial Officer for Finance
        Frank Trinity. General Counsel
        Kristin McSwain, Director of AmeriCorps
        Sherry Blue, Audit Resolution Coordinator
